COVINGTON
BEIJING
LONDON

BRUSSELS

DUBAI

LOS ANGELES

SAN FRANCISCO

SEOUL

Gregg II. Levy

FRANKFURT

NEW YORK
SHANGHAI

JOHANNESBURG

PALO ALTO
WASHINGTON

By Electronic Filing

Covington & Burling LLP
One CityCenter
850 Tenth Street, NW
Washington, DC 20001-4956
T 11 202 662 5292
glevy@cov.com

July 15, 2020

The Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street NE
Washington, DC 20543
Re: National Football League, et al. v. Ninth Inning, Inc., et al.,
No. 19-1098
Dear Mr. Harris:
Pursuant to the Court's order of March 19, 2020, modifying the Court's rules and
practices in light of COVID-19, Petitioners respectfully request that distribution of their
certiorari materials be delayed for 14 days, from July 29, 2020, to August 12, 2020.
Petitioners respectfully submit that additional time to file a reply is needed due to
COVID-19, which has displaced Petitioners and counsel from their respective offices and made
coordination between Petitioners and counsel more difficult.
Respondents' counsel has indicated that Respondents do not object to this proposed
extension.
Sincerely,

Gregg H. Levy

cc:

Mr. Arun Subramanian, counsel of record for respondents
Ms. Erin E. Murphy, counsel for DIRECTV petitioners

